U.S. Department of the Interior
Office of Inspector General




         SURVEY REPORT


  COSTS INCURRED UNDER SELECTED
   FEDERAL AGREEMENTS WITH THE
 CHICKASAW NATION OF OKLAHOMA

            REPORT NO. 99-I-484
                MAY 1999
                                                                          C-IN-BIA-004-98-R


              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240




                                                                              MAY 2 1 1993
                                 SURVEY REPORT
Memorandum

To:       Assistant Secretary for Indian Affairs

From:     Robert J. Williams
          Assistant Inspector

Subject: Survey Report on Costs Incurred Under Selected Federal Agreements With the
         Chickasaw Nation of Oklahoma (WO. gg-r-484 )

                                 INTRODUCTION
This report presents the results of our survey of costs incurred under selected Federal
agreements with the Chickasaw Nation of Oklahoma. The objective of the survey was
to determine whether costs incurred under Federal funding agreements, principally those from
the Department of the Interior, were eligible for reimbursement. We conducted the survey
in response to a request from two members of the Congress.

BACKGROUND
The Indian Self-Determination and Education Assistance Act (Public Law 93-638) directed
the Secretaries of the Interior and of Health and Human Services to contract with any tribal
organization to plan, conduct, and administer programs or services that otherwise would be
administered by the respective departments for the benefit of Indians. The standards for tribal
financial management of self-determination contracts are contained in the Code of Federal
Regulations (25 CFR 900, Subpart F). The Act also established a tribal self-governance.
program for Indian tribes. Under a self-governance program, tribes are authorized to plan,
conduct, redesign, and administer programs, services, functions, and activities that meet the
needs of the individual tribal communities, including decision making and control over funding
provided through compacts with the Department. On June 29, 1993, the Chickasaw Nation
signed a self-governance compact with the Secretary of the Interior, and on June 30, 1994,
the Nation signed a compact with the Secretary of Health and Human Services. Under the
compacts, the Nation agreed to abide by generally accepted accounting principles and
applicable circulars of the Office of Management and Budget.’ Also, the Department of the
Interior, on February 12,1998, published draft rules and regulations for tribal self-governance
programs that require the tribes to maintain management systems and practices at least
comparable to those in existence when the tribe entered the self-governance program. In
addition, the Nation has implemented its own policies and procedures for the administration
and management of tribal and Federal funds.

In fiscal year 1997, the Chickasaw Nation received approximately $4.9 million from the
Department ofthe Interior for the following programs: Self-Governance - $3.2 million, Carter
Seminary - $604,000, Roads Construction and Maintenance - $1 .O million, Transportation
Improvement - $26,000, Title Documents Acquisition - $5,000, and Kullihoma Building
Demo - $18,000. A September 3, 1998, expenditure schedule for fiscal year 1997 prepared
by the Nation for its independent public accountants showed that the Nation had expended
an estimated $4.9 million under the Department of the Interior programs cited. The Nation
also received approximately $43.3 million from the Department of Health and Human
Services under a self-governance compact for Indian health service programs. A July 21,
1998, working trial balance showed that the Nation had expended an estimated $41.1 million
under the Department of Health and Human Services programs

SCOPE OF SURVEY

Our survey was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. To accomplish our objective, we obtained and reviewed applicable criteria
related to the procurement of services and payment of expenditures for Federal programs,
reviewed and discussed financial controls over these functions with Nation officials, and
selected and reviewed samples of Federal program expenditures.

The Nation’s general ledger system identified 2,150 Department of the Interior program
transactions, totaling $5 million,* for the period of October 1, 1996, through September 30,
 1997. From these transactions, we judgmentally selected a sample of 49 (2.3 percent)
transactions, totaling $88 1,000 (17.7 percent), which represented different object class costs
(such as payroll, training, travel, and contracts) and various construction- and
assistance-related programs.



‘Office ofManagement and Budget Circulars A-128.“Audit Requirements for State and Local Governments”:
A-87. “Cost Principles for State. Local, and Indian Tribal Governments”; and A-102. “Grants and Cooperative
Agreements With State and Local Governments.” Circular A-102 states that the President directed all
affected Federal agencies to issue a grants management common rule to “adopt govermnent-wide terms and
conditions for grants to State and local governments [including Indian tribal governments], and they did so.”

‘Expenditures are greater than the amounts awarded in fiscal year 1997 because of the carryover of unspent
Federal funds from prior years. Also, the fiscal year 1997 program transactions were unaudited at the time
of our review and therefore may be adjusted as a result of an audit by the Nation’s independent public
accounting firm.

                                                     2
We also reviewed certain purchases made with Department of Health and Human Services
Compact funds. Of 745 transactions, totaling $692,000, disbursed by the Nation to two
Chickasaw Nation business enterprises during the period of October 1, 1996, through July 23,
 1998, we judgmentally selected 16 transactions equal to or greater than $2,000, totaling
$235,000. In addition, we selected 23 Department of Health and Human Services program
transactions, totaling $283,000, that former Nation employees had suggested we review and
certain interest costs charged to the Nation’s indirect cost account funded by Federal
programs from June 15, 1995, through May 2 1, 1998

Our scope was limited to the review of the Nation’s unadjusted accounting records for fiscal
year 1997 because, at the time of our review, the Nation’s independent accountants had not
completed the audit of the Nation’s financial statements for fiscal year 1997.

As part of our review, we evaluated the Nation’s system of internal controls over the
procurement of goods and services and payment of expenditures to the extent we considered
necessary to accomplish our objective. The internal control weaknesses identified are
discussed in the Results of Survey section of this report. If implemented, the
recommendations should improve the internal controls in these areas. Our survey fieldwork
included visits to the headquarters of the Chickasaw Nation, in Ada, Oklahoma.

PRIOR AUDIT COVERAGE
During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has performed any audits that specifically addressed the Chickasaw Nation’s
procurement and payment activities related to Federal programs. However, on July 14, 1997,
the Nation’s independent accounting firm issued the report entitled “Chickasaw Nation,
General Purpose Financial Statements and Other Financial Information for the Year Ended
September 30, 1996.” The report did not contain any recommendations or questioned costs,
and it stated that the independent accounting firm’s tests disclosed no instances of
noncompliance with regulations or weaknesses in internal control structures related to Federal
financial assistance programs.

                            RESULTS OF SURVEY
Except for the matters discussed in this report that relate to indirect costs and procurement,
no significant issues came to our attention concerning the Chickasaw Nation’s accounting for
costs incurred under Department of the Interior funding agreements during the period of
October 1, 1996, through September 30, 1997. Ofthe costs of $5 18,000 we tested under the
Department of Health and Human Services Self-Governance Compact, we questioned costs
of $36,800: $16,900 for Christmas gifts and $19,900 for salary payments to an employee who
had resigned. We also identified interest expenses of $9,500 resulting from late payments,
which were incorrectly charged to the Nation’s indirect cost account. In addition, we found
that 27 purchase transactions, totaling $336,100, were made without adequate competition
and that 3 of these purchases were not awarded to the lowest bidders. As a result, the Nation



                                              3
did not have full assurance that goods and services were acquired at an economical and
reasonable price, and it incurred costs of about $10,000 in excess of the low bids offered.

Department of the Interior Programs

Based on our review of 49 transactions, totaling $881,000, incurred by the Nation under
Department ofthe Interior-funded programs, we did not question any costs for the following
programs:
                                                                  costs
                                 Program                        Incurred
                 Self-Governance                               $138,000
                 Carter Seminary                                     100
                 Roads Construction and Maintenance              742,000
                 Transportation Improvement                          900
                 Title Documents Acquisition                            0
                 Kullihoma Demo                                         0
                     Total                                     $881,000<

We also found that the system used to account for direct costs was in compliance with
applicable financial management standards. The Nation’s accounting system provided
effective control and accountability over program funds; adequate identification ofthe source
and application of funds; and adequate source documentation such as contracts, purchase
orders, payroll detail, canceled checks, and general assistance eligibility forms.

Department of Health and Human Services Programs

Of the 39 transactions reviewed, totaling $5 18,000, we questioned costs on 2 transactions,
totaling $36,800, charged to Department of Health and Human Services self-governance
programs (Agreement No. ISG 950020-01-3) as follows:

          - On January 23, 1998, the Nation spent $16,900 for turkeys that it had distributed
to all tribal employees as Christmas gifts. Circular A-87 (Attachment B, Item 18) states that
costs of entertainment, including social activities and any related costs such as meals, are
unallowable. Also, the Federal Acquisition Regulation (48 CFR 3 1.205. 13(b))3 states that
using Federal funds for gifts is unallowable.

     - From August through November 1997, the Nation spent $19,900 for regular salary
payments to an employee who had resigned effective July 29, 1997. Circular A-87


‘In response to our inquiry, the Nation’s Administrator of the Division of Support Services stated, in an
August 27. 1998. letter. that the Nation’s “procurement department does in fact use the Federal Acquisition
Regulation (FAR) as a model for our own purchasing procedures. In addition, the FAR is used as a reference
tool in the event that our own policies do not address a specific topic and the purchasing officer was unable
to determine that pricing was fair and reasonable using his own expertise.”

                                                     4
(Attachment B, Item 11) requires that compensation for personal services be for services
rendered during the period of performance under Federal awards. At the time of our review,
the Nation could not provide documentation to support that the employee had performed any
work after the date of resignation.

Indirect Costs

The Nation established an account funded by Federal programs to record the Nation’s indirect
costs. During our review of payment transactions, we identified two transactions, totaling
$9,500, for interest charged to the Nation for late payments on invoices billed by an
independent contractor for the planning and implementation services of the Nation’s network
information system. Specifically, the Nation charged $4,300 on May 21, 1998, and $5,200
on June 15, 1995. Circular A-87 (Attachment B, Item 26) provides that costs incurred for
interest, however represented, are unallowable.

Procurement

The Chickasaw Nation made purchases without adequate competition and without selecting
the lowest bidder, and there was no documentation in the tiles to justify these actions.
Section B (“Basic Policies”) of the Nation’s Procurement Manual requires that all
procurement actions, whether by formal advertising or negotiation, be made on a competitive
basis to the maximum extent practicable. Section J (“Procurement Methods”) requires price
or rate quotations to be obtained from a sufficient number of qualified sources, and Section L
(“Procurement Records”) requires that procurement records include contractor selection or
rejection information, a basis for the cost or price, and a rationale for the method of
procurement. The lack of competition occurred principally because the Nation established
a program to support purchasing from its enterprises without modifying its procurement
procedures to provide for an evaluation of the reasonableness of the costs of enterprise
products. Specifically, the Governor of the Nation issued a policy on October 15, 1996, in
support of making purchases from the Nation’s enterprises as follows:

        It is the policy of the Chickasaw Nation Executive Department to fully
        support all tribal businesses in every way possible. To that end, please be
        advised that all tribal programs which operate motor vehicles must be utilizing
        our tribal motor fuel outlets as much as possible. Computer supplies should
        also be purchased through our computer company. The staff at
        Chickasaw Enterprises will help you if you have any problems or special
        concerns.

We reviewed 27 furniture and equipment purchases, totaling $336,100, of which
24 purchases, totaling $262,500, were from tribal enterprises. Of the 27 purchases.
19 purchases were made with Department of Health and Human Services funds ($308,800).
and 8 purchases were made with Department of the Interior funds ($27,300). Based on our
review of the procurement files, we found that 20 purchases, totaling $260,600, were made
without any competition or justification for the noncompetitive procurement and that
7 purchases, totaling $75,500, were made without adequate competition. Of the seven

                                              5
purchases made without adequate competition, three purchases were also made without the
lowest bidder being selected or a justification documenting the selection. Examples of these
procurements are presented in the paragraphs that follow.

The following procurements were made with no competition:

       - The Nation’s Carl Albert Indian Hospital, during the period of March through April
1997, used Department of Health and Human Services self-governance funds (Agreement
No. ISG950020-01-3) totaling $154,000 to purchase kniture from a Nation enterprise.

       - The Nation’s Carl Albert Indian Hospital, on August 25 and December 19, 1997,
used Department of Health and Human Services self-governance funds (Agreement
No. ISG950020-0 l-3) totaling $41,667 to purchase carpet from an outside vendor.

        - The Nation, on November 26, 1997, used Department of Health and Human
Services Early Childhood program Iknds (Agreement No. 9OCI1543\19) totaling $8,679 to
purchase three computers and three printers from a Nation enterprise.

The following procurements were made with inadequate competition:

        - The Nation, on March 3, 1998, used self-governance funds (Agreement
No. ISG950020-01-3) totaling $4,8 19 to purchase three computers from the Nation’s
business enterprise. Based on our review of the procurement file, we found that computers
could have been purchased from another vendor for $2,727. However, the specifications for
the computers offered by the competing vendor were different, There was no documentation
of the Nation’s needs or justification supporting the decision to purchase the more expensive
computers. As a result, there was no assurance that the additional costs of $2,092 charged
to the Department of Health and Human Services self-governance program were warranted.

        - Three procurement files contained vendor costs that were not current or that were
obtained from catalogue listings which were not updated to the current date of purchase.

        - Two procurement files indicated that procurement specifications were changed but
that the changes were not communicated to both competing vendors.

         - One procurement file showed that the procurement officer had provided the cost
estimate of another vendor to the Nation’s business enterprise and requested that the
enterprise meet the price.

The followmg procurements were made with the lowest bidder not being selected:

        - The Nation’s Carl Albert Indian Hospital, on July 23, 1997, used self-governance
funds (Agreement No. ISG950020-01-3) totaling $30,984 to purchase carpet from a vendor
that had not offered the lowest price. Based on our review of the procurement file, we found
that the same type of carpet could have been purchased from another vendor for $25,200.


                                              6
As a result, excess costs of at least $5,784 were charged to the Department of Health and
Human Services self-governance program.

        - The Nation, on September 30, 1997, used self-governance %nds (Agreement
No. ISG950020-0 l-3) totaling $24,156 to purchase 17 computers from the Nation’s business
enterprise, which had not offered the lowest price. Based on our review of the procurement
file, we found that the same types of computers could have been purchased from another
vendor for $20,338. As a result, excess costs of at least $3,818 were charged to the
Department of Health and Human Services self-governance program.

Indian preference in employment, contracting, and subcontracting is authorized by the
compacts. However, we believe that the Nation’s procurement manual should provide
guidance in determining whether the prices of goods offered by the Nation’s enterprises are
competitive. For example, the Nation’s enterprises could submit bids or price quotations on
proposed procurement transactions and receive the award if their bid or quote is responsive
and within a designated percentage of the lowest bid or quote.

Recommendations

We recommend that the Assistant Secretary for Indian Mairs instruct the Chickasaw Nation
to:

        1. Adjust the indirect cost account for the questioned interest charges of $9,500.

        2. Comply with Federal and Nation requirements for competitive procurements and
for selection of the lowest responsive bid.

       3. Develop and implement specific procedures for evaluating and awarding
procurements to the Nation enterprises.

Although we did not make any recommendations to the Department of Health and Human
Services, we have informed them of the results of this review and will provide them a copy
of this report.

Bureau of Indian Affairs Response and Office of Inspector General Reply

In the April 2 1, 1999, response (Appendix 2) to the draft report from the Assistant Secretary
for Indian Affairs, the Bureau concurred with the three recommendations. Based on the
response, we consider the recommendations resolved and implemented (see Appendix 3).

Additional Comments on Audit Report

In its response, the Bureau included as an attachment the April 8, 1999, response from the
Governor of the Chickasaw Nation. The Nation’s response provided additional comments
on the section of the report related to procurements made with the lowest bidder not being

                                              7
 selected. The Nation said that “[w]e agree that our files were lacking in documentation to
justify the purchases mentioned in the survey” report but that “we believe that competitive
prices were obtained for the merchandise. ” The Nation included additional details on two of
the examples in the report as follows:

        For example, the survey [report] stated that we [the Nation] purchased three
        computers for $4,819 and the same types of computers could have been
        purchased from another vendor for $2,727. The lower price was obtained
        from a flyer of a company with which we had not done business and had no
        knowledge of their reputability. Also, the computers did not have comparable
        memory or speed. The computers we purchased had 4.3GB hard drives,
        32MB RAM and pentium 233 processors, whereas the computers listed on
        the flyer had 1.2GB hard drives, 16MB RAM and pentium 166 processors.

        Another example was the carpet purchase mentioned in the survey [report].
        It stated that we [the Nation] could have purchased the same type of carpet
        for $45,784 less than the price we paid. Even though the higher priced carpet
        was ofbetter quality, our main reason for selecting it was the process in which
        an antibacterial agent is applied to the carpet. The agent is applied to the
        more expensive carpet during the manufacturing process, whereas the agent
        is sprayed on the lower priced carpet after completion. Also, we would like
        to mention that we purchased the carpet directly from the wholesaler used by
        the other vendor. We were able to purchase the more expensive carpet at a
        wholesale price.

The Nation stated that its “failure to maintain supportive documentation for these purchases
gave the appearance that competitive prices were not obtained” and that the cited examples
“also indicate that we [the Nation] did not seek new bids from the vendors when we changed
our procurement specifications.”

Regarding the computers, we agree that the procurement document supporting competition
from a source other than the Tribal enterprise was for computers that had specifications
different from those offered by the Tribal enterprise. However, the vendor is a national
computer supply company that has been in business since 1978 and that offers computers with
the same specifications as the computers offered by the Tribal enterprise. Since the
documented specifications were different, we have changed the classification of the example
to a procurement made with inadequate competition.

Regarding the carpet purchase, our report stated that the carpet purchased could have been
purchased for $5,784 less than the price the Nation paid, not the $45,784 cited in the Nation‘s
response. Also, we disagree that the carpet offered by the vendors was different. According
to notes included in the procurement tile, a competing vendor said that he can “get carpet at
$10.50/ sq. yd. vs. [versus] the $12.91/sq. yd. from [vendor name] w/o Frt. [without freight]
(add .55/sq. yd.).” The vendor confirmed that his bid, a difference of $2,96/square yard, \vas
based on specifications that were provided to him by the Nation and that were identical to the
specifications provided to the other vendor. In addition, the vendor said that he told the

                                               8
Nation that he could provide carpet from other manufacturers which met or exceeded the
specifications and at prices which were lower than the $12.9l/square yard price offered by
the vendor being considered by the Nation. We believe that because the Nation did not obtain
documentation which clarified the terms ofthe competing offers or seek additional bids when
it appeared that a competitive market existed, there was no assurance that procurements were
the most economical. Therefore, we did not change the classification of this example.

Since the recommendations are considered resolved and implemented. no fbrther response
to this report is required (see Appendix 3).

The legislation, as amended, creating the Ofice of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(see Appendix l), actions taken to implement audit recommendations, and identification of
each significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau of Indian Affairs and Chickasaw Nation personnel
in the conduct of our audit.




                                             9
                                                   APPENDIX 1


                 CLASSIFICATION OF MONETARY AMOUNTS


                                                      Questioned
                      Findings                          costs

Department of Health and Human Services Programs         $36,800

Indirect costs                                             9.500

       Total                                             $46,300




                                       IO
                                                                                           APPENDIX 2
                                                                                           Page 1 of 4
                   United States Department of the Interior
                                   OFFICE OF THE SECRETARY
                                    WASHINGTON, DC. 20240
                                          APR 21 1999
 Memorandum

 To:      Assistant Inspector General for Audits

From:     Assistant Secretary for Indian Aff ’

 Subject: Draft Audit Report on Costs Inc   Under Sel c Federal Agreements With the
                   *                    ?
          Chickasaw Nation of Oklahoma (Assignment No. C-IN-BIA-004-98-R)

The subject audit report presents the results of an Office of Inspector General survey of costs
incurred by the Chickasaw Nation of Oklahoma under selected Federal agreements. Regarding the
Department of the Interior programs, the audit did not question any costs and found that the system
used by the Nation to account for direct co& wa% in compliance with applicable financial
management standards. The audit, however, did identify deficiencies related to indirect costs and
procurement. The Office of Self-Governance requested and received the attached comments from
the Nation regarding the report and its recommendations.

The Office of Self-Governance and the Nation agree with the audit findings and concur with the
recommendations. In addition, the Nation has taken actions which we believe implement the audit
recommendations.

Recommendation 1. We recommend that the Assistant Secretary for Indian Affairs instruct the
Chickasaw Nation to adjust the indirect cost account for the questioned interest charges of $9,500.

Response. The OSG and the Nation concur. The Nation reimbursed its indirect cost account for
the unallowable interest charges. To support the reimbursement, copies of the checks are attached
to the Nation’s response. In addition, the Nation is requiring its financial office staff and directors
and administrators to attend training on Office of Management and Budget Circular No. A-87 and
A-l 02 and the Common Rule.

Recommendation 2. We recommend that the Assistant Secretary for Indian Affairs instruct the
Chickasaw Nation to comply with Federal and Nation requirements for competitive procurements
and for selection of the lowest responsive bid.

Response. The OSG and the Nation concur. The Nation re&nned its compliance with Federal
requirements for competitive procurements and for selection of the lowest responsive bid. Further,
the Nation revised its acquisition policies to reflect the most recent changes in the Federal
acquisition regulations concerning the use of competition and the documentation requirements
associated with competition. The Nation also established an internal review process to ensure


                                               11
                                                                                     APPENDIX 2
                                                                                      Page 2 of 4
compliance with Federal and tribal policy. [The Nation offered additional comments on two-of the
examples discussed in the draft report.]

Recommendation 3. We recommend that the Assistant Secretary for Indian Affairs instruct the
Chickasaw Nation to develop and implement specific procedures for evaluating and awarding
procurements to the Nation’s enterprises.

Response. The OSG and the Nation concur. The Nation developed and implemented specific
procedures for evahtating and awarding procurements to the Nation’s enterprises. These procedures
were promulgated in March 1999.


Attachment

cc: Governor, Chickasaw Nation of Oklahoma




                                           12
                                                                                  .:

                                                                                                APPENDIX 2
                                                                                                 Page 3 of 4




                                       OFFICE OF THE GOVERNOR
                                            The Chickasaw Nation
                                 Do& Office Box 1548   l    Ada. Oklahoma 74821
BJLL ANOATlJN3Y                     (580) 43H.603      l    Fax 080) 436-4287
    COVCRNOR

                                               April 8, 1999



 Mr. William A. Sinclair, Director
 Office of Self-Governance
 U.S. Department of the Interior
 Office of the Secretary
 Washington, DC 20240

 Dear Mr. Sinclair:

         We appreciate being given the opportunity to respond to the survey performed by the Office of
 Inspector General. The recommendation provided in the draft survey report and verbally by the Inspec-
 tor General’s audit staff has been valuable to our tribe. We are continually striving to improve our
 management of federal and tribal funds.

         As recommended, we have reimbursed the indirect cost funds for interest charged to the tribe for
 late payments on invoices billed by an independent contractor for the planning and implementation
 services of the tribe’s network information system. Copies of the checks transferring the funds are
 provided with this letter in attachment 1. Payment of the interest charges from our indirect cost funds
 was an oversight on our part. Consequently, we are taking measures to ensure that only allowable costs
 are charged to our federal funds in the future by educating our staff on federal requirements. We have
 developed a policy requiring our financial office staff and directors/administrators to attend training on
 OMB Circulars A-87, A-102 and the Common Rule Administrative Requirements, which will be pro-
 vided by the tribe through an independent accounting fum.

         The survey stated purchases were made by the tribe without adequate competition and without
 seeking the lowest bidder, and there was no documentation on file justifying these actions. Although we
 agree that our files were lacking in documentation to justify the purchases mentioned in the survey, we
 do believe that competitive prices were obtained for the merchandise.

        For example, the survey stated that we purchased three computers for $4,8 19 and the same types
 of computers could have been purchased from another vendor for $2,727. ‘The lower price was obtained
 from a flyer of a company with which we had not done business and had no knowledge of their reputa-

                                                       13
                                                            Visit Our Web Site: http://www.chickasaw.com/-cnation
                                                            Governor’s email address: governora@chickasaw.com
                                                                                    .,   .’
                                                                                                 APPENDIX 2
                                         i
Mr. Wil1iam.A. Sinclair          ’   :                2                                   . .’




bility. Also, the computers did not have comparable memory or speed. The computers we purchased
had 4.3GB hard drives, 32MB RAM and pentium 233 ,processors, whereas the computers listed on the
flyer had 1.2GB hard drives, 16MB RAM and pentium 166 processors.

        Another example was the carpet purchase mentioned in the survey. It statedthat we could have’
purchased the same type of carpet for $45,784 less than the price we paid. Even though the higher
priced carpet was of better quality, our main reason for selecting it was the process in which an anti-
bacterial agent is applied to,the.,carpet. The agent is applied to the more expensive carpet during the
manufacturing process, whereas the agent is,sprayed on the lower priced,carpet after completion. Also,
we would like to mention that we purchased the carpet directly from the wholesaler used by the other
vendor. We were able to purchase the more expensive carpet at a wholesale price.

        Our failure to maintain supportive documentation for these purchases gave the appearance that
competitive prices were not obtained. The above examples also indicate that we did not seek new bids
from the vendors when we changed our procurement s#eXcations. We are addressing these inadequa-
cies in our reaffirmation of the tribe’s compliance with federal and tribal requirements for competitive
procurements and for selection of the lowest responsive bid, contained in attachment 2.

       We have also provided, in attachment 3, our policies and procedures for evaluating and awarding
procurements from the tribe’s enterprises.

        The recommendations provided by the Offrce of Inspector General are appreciated. We are
confident that the implementation of these recommendations will continue to improve our management
of federal and tribal funds.

                                             Sincerely,




                                             Bill Anoatubby, Governor
                                             The Chickasaw Nation

Enclosures (3)

(Enclosures not included by Office of fnspector General)




                                                 14
                                                               APPENDIX 3



      STATUS OF SURVEY REPORT RECOMMENDATIONS



Finding/Recommendation
       Reference               Status             Action Required

      1, 2, and 3        Implemented.    No fin-ther action is required.




                                    15
                   ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov


                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-5081 or
Mail Stop 5341                                          (202) 2085300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U. S . Department of the Interior                       (703) 235-9221
Of&e of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (671) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081 ’        z
 TDD l-800-354-0996
                         i
                         5
FTSKommercial Numbers:
 (202) 208-5300          E
 TDD (2021 208-2420      E



1849 C Street, N.W.
Mail Stop 5341
